programs that received funding under the Recovery Act provided copies of draft program plans
to us for review.1 We also reviewed Departmental standard language that introduces each
program’s plan.

        We provided our observations in draft to the Department and bureaus. Although we did
not require a response, we received responses from the Department, FWS and USGS. We also
received revised program plans for FWS, USGS, NPS, and BIA. This advisory summarizes our
observations on the draft program plans and Departmental standard language provided to us, as
well as responses received and actions taken that address our observations. We divide our
observations into three sections: observations on program plan standard language, observations
on bureau-specific plans that were addressed, and observations on bureau-specific plans that
were not addressed.

         While the majority of our observations were addressed, NPS and BIA did not address
several critical areas. Specifically, NPS should be prepared to justify the use of cooperative
agreements, but did not do so in its program plan. This justification is particularly critical when
NPS uses both cooperative agreements and other procurement vehicles for the same project.
Appropriate use of cooperative agreements has been a problem in the past. BIA should ensure it
develops and documents oversight plans for and devotes adequate resources to Recovery Act
projects, but did not describe such efforts in its program plans. Such plans and resources are
particularly critical for school replacement and school improvement projects, areas that have
experienced problems in the past. BIA should also ensure its timelines for completion are
realistic. Although program plans are finalized, we encourage the Department and bureaus to
consider those areas that have not been addressed as they move forward with implementation of
Recovery Act projects.

       We commend the Department and the bureaus for their openness and willingness to share
documents and plans with us and to address our comments. We are encouraged by this increased
transparency in their processes and their responsiveness to our observations. We look forward to
continued collaborative efforts as the Department and the bureaus seek to implement Recovery
Act projects effectively and ensure transparency in their efforts.

Program Plan Standard Language
       We reviewed the Departmental standard program plan language and provided our
observations to the Department. The Department considered our input and revised the standard
language. Our observations and the Department’s response follow.

Expediency of Implementation

      We expressed concern that the Departmental draft standard language placed too much
emphasis on “expediency” as a factor in the selection of projects, particularly given OMB’s


1
  Draft program plans from the Bureau of Reclamation, the Wildland Fire Program, and the Central Utah Water
Conservancy Program were not available at the time of our review (we have since received a final program plan for
the Central Utah Water Conservancy Program).
                                                                                                                2
April 3, 2009 guidance directing agencies to develop transparent, merit-based selection criteria to
guide their Recovery Act funding actions for grants and other financial assistance vehicles.

        The Department agreed that “expediency” is an important factor, but not the most
important. The Department clarified the standard language by stating that expediency “was a
limiting factor that impacted other agency priorities considered during the selection process
including meritorious projects that were not far enough along with design or permitting to be
obligated by September 30, 2010.” The Department also noted that this criteria could not be
uniformly applied across the bureaus because of the differences in project types and
circumstances.

Monitoring and Evaluation

        The Department’s draft standard language stated that the Department was developing
performance measures to ensure it met the Recovery Act’s accountability objectives. The
Department’s measures, as stated in the draft language, focused on: maximum use of competitive
awards, timely implementation and expenditure of funds, successful completion of planned
work, and minimal cost overruns and improper payments. We noted that several factors (e.g. job
creation, health and safety, and energy efficiency) specified by the Department as criteria for
project selection were not mentioned in this list of measures.

       The Department clarified the standard language to note that performance measures were
being developed “to monitor progress made in accomplishing stated work goals and to ensure
financial and procurement practices are executed responsibly.”

Priorities

         The Department described the process used to prioritize projects in the draft standard
language, but there were inconsistencies between the description and data we reviewed in bureau
project plans. The language noted that bureaus annually update 5-year plans, which identify
deferred maintenance and construction needs. Recovery Act projects addressing these needs are
given a “DOI score” based on several categories such as critical health and safety, energy,
critical mission, and code compliance.

        We noted that such a process seems to provide a transparent and rigorous means to select
projects. However, many of the projects on bureau project lists lack DOI scores, likely because
scoring is based on construction and deferred maintenance needs, and therefore may not be
adaptable to other types of projects, such as habitat restoration and equipment replacement. We
also noted that OMB and Departmental guidance included other project selection criteria such as
energy efficiency, use of renewable energy, youth, treasured landscapes, and national icons, but
that the standard language did not address how these factors were considered in project selection.

         The Department revised the standard language to note that the Departmental 5-year
planning process was intended to focus limited resources on projects that are both mission
critical and in the most need of repair/replacement. The language clarifies that this planning
process is used only for construction and deferred maintenance and that no similar Department-
wide process exists for other types of projects. The language notes that the processes for
                                                                                                 3
selecting other types of projects are bureau-specific and described in each bureau program plan.
The Department also revised the standard language to describe how each bureau allocates
priorities among funding categories and identifies specific projects. The language notes that
merit-based criteria were considered (pursuant to OMB guidance) as well as implementation
readiness and operating cost reduction.

Barriers to Effective Implementation

        Adequate identification and communication of all barriers to effective implementation
could help the Department and bureaus to ensure that Congress and the public understand the
challenges faced in implementing the Act. Such information would also help the Department to
meet the transparency and accountability goals of the Act. However, the draft standard language
section on “barriers to effective implementation” identified only the lack of contract personnel as
a barrier. While this area certainly poses a daunting challenge to effective implementation, we
observed that other barriers exist. For example, effective monitoring and oversight of projects
require more than contracting personnel. We have not conducted a review, but believe, based on
discussions with Department officials, that there may be shortages of staff with technical skills
for effective project oversight. Additionally, obstacles may exist in finding qualified businesses,
especially small or disadvantaged businesses, to perform projects. Lack of qualified private
sector entities could also limit competition or delay implementation.

        The Department substantially revised the standard language on barriers to effective
implementation. The Department added additional barriers, including the availability of
qualified contractors to perform projects for multiple agencies that may compete for these
contract resources. The Department also added that timely completion of design and permitting
could delay specific projects. Finally, the updated standard language states that unforeseen
events, such as wildfires, could impact staff that would support Recovery Act projects.

Observations on Bureau Program Plans That Have Been Addressed

NPS Program Plan

       We reviewed the NPS draft program plan, dated April 8, 2009, and provided our
observations to the bureau and Department. We reviewed the bureau’s final April 21, 2009
program plan to determine whether our observations were addressed. We discuss below the
observations that NPS addressed and discuss in the next section those NPS did not address.

Funding Categories

        The NPS draft program plan stated that eight program areas would receive funding, but it
named only seven program areas. It was unclear if “Administration” was intended to be the
eighth program area. We noted that if so, clearly identifying administrative costs as a separate
item, rather than including it as a program area, would improve the transparency of the plan.

        NPS addressed our observation. The final program plan lists three appropriation
accounts: Construction, Operation of the National Park System, and Historic Preservation Grants
to Historically Black Colleges and Universities. These accounts correspond to the three funding
                                                                                                   4
categories identified in the Recovery Act for NPS. NPS includes a total of nine program areas
under the three appropriation accounts. They also broke out administrative costs separately.
The additional clarity on appropriation accounts, programs, and administrative costs should help
to improve transparency and tracking of expenditures under the Recovery Act.

Historically Black Colleges and Universities – Preservation Grants

        NPS received $15 million under the Recovery Act to provide preservation grants to
Historically Black Colleges and Universities. However, we observed the draft program plan did
not contain any information on these grants. NPS provided information about these grants in the
final program plan.

BLM Program Plan

       We reviewed the BLM draft program plan dated April 15, 2009 and provided our
observations to the bureau and Department. We reviewed the bureau’s final May 6, 2009
program plan to determine whether our observations were addressed. We discuss below the
observations that BLM addressed and discuss in the next section those BLM did not address.

Oversight Structure

        We expressed concern over the description of the governance structure proposed for
oversight of Recovery Act projects in BLM’s draft program plan. Governance includes
oversight of the Recovery Act projects. The plan notes that a single Recovery Act Project
Manager will lead a team to ensure compliance with the Recovery Act and linkage “with
program managers and state leads…to interpret guidance, eliminate barriers to success, and to
monitor performance.” The description of programs identify two program managers as Assistant
Directors and one as a State Director; it was unclear what authority the Recovery Act Project
Manager has vis-a-vis these program managers. We also expressed concern about the ability of
the Assistant Directors to provide adequate oversight. Each is responsible for almost 300
Recovery Act projects. We noted that, given this large number of projects and their significant
other responsibilities, it is important that these highly placed officials (and other officials
assigned with Recovery Act responsibilities) be able to provide sufficient oversight of the
Recovery Act projects for which they are responsible.

       BLM addressed these issues in the “Governance at BLM” section of the final program
plan. BLM has established a Recovery Oversight Committee (ROC) to govern the
implementation of the Recovery Act. This committee includes a Recovery Act Project Manager.
The Recovery Act Project Manager, in turn, heads a team responsible for the implementation of
decisions by the ROC. This team includes representatives for Renewable Energy, Construction and
Deferred Maintenance, Treasured Landscapes, and Hazardous Fuels. The plan states that:

       The team links with program managers and state leads across the BLM to interpret guidance
       and eliminate barriers to success, and to monitor performance… In addition the Project
       Manager hosts weekly calls with State Coordinators to update the field on decisions of the
       ROC, new guidance from DOI or OMB, and to respond to questions. The project manager has
       authority to coordinate actions needed to implement the Recovery Act.”
                                                                                                5
Project Selection – Project Completion Timeframes

        The draft program plan contained contradictory information regarding the criteria for
selecting projects. The contradiction related to whether BLM intended to select projects that
could be completed by September 30, 2010 or those that could meet the requirement, as
prescribed in the Recovery Act, to obligate all funds by that date. The section “Process for
Allocating Among Categories” referred to selection of projects that can be completed by
September 30, 2010. The section “Deferred Maintenance” referred to completion in 18 months.
However, the section “Recovery Act Funds Impact on 5-Year Plan” referred to the “1 October
2010 obligation requirement” (emphasis added). The plan also showed projects for several
programs extending beyond 2010 in “Completion Rate” tables.

       We observed that Recovery Act funds provided to BLM should be obligated by
September 30, 2010 (Section 1603 of the Act). We expressed concern that BLM was potentially
unduly restricting their choice of projects with the requirement to select only those projects that
could be completed by September 30, 2010. We observed that if BLM meant obligated, it
should correct the wording.

       BLM addressed this issue in the final program plan. BLM replaced the word
“completed” with the word “obligated.” This change helps to eliminate confusion over, and
potential questions about, BLM’s criteria for project selection and target dates for completion.

Project Selection – Project Priorities

        The draft plan noted that “funding is provided to remediate the immediate physical safety
hazards at 78 abandoned mines,” but later discussion of the Abandoned Mines in the draft plan
identified 31 projects related to physical safety, 23 related to inventory and/or environmental
issues, and 24 related to other issues. We observed that the plan, to be clear and transparent,
should explain that abandoned mines can present both physical safety hazards and environmental
hazards, the latter of which often require more time and resources to remediate effectively.
BLM’s May 6, 2009 program plan explains that abandoned mines can represent both physical
safety and environment hazards.

Inconsistencies in Information Presented

        We observed that in several of the draft program area discussions (Renewable Energy
Authorizations, Habitat Restoration, Construction, Abandoned Mines, and Trails), the numbers
of projects and/or estimated costs were different in the text and the accompanying tables. BLM
corrected the inconsistencies in the final program plan.

Potential Barriers to Implementation

        We observed in the “Abandoned Mines” program discussion that 54 projects were to be
performed by private firms under existing contracts. It was unclear in the draft plan if these
existing contracts were modified to include Recovery Act terms and conditions or if modification
might present a barrier to implementation.

                                                                                                   6
       We consider this issue addressed because the requirement of using existing contracts was
eliminated from the final program plan. The final plan also revised from 54 to 66 projects to be
performed by private firms. We note BLM must ensure it complies with requirements of the
Recovery Act and the policy from the Office of Acquisition and Property Management regarding
modification of existing contracts for implementation of Recovery Act projects.

Abandoned Well Program

        The Abandoned Well program in both the draft and final program plan consists of one
large project in Alaska. BLM proposed to accomplish the project by using small businesses,
Native owned businesses and minority owned service providers. If BLM intends to use this
strategy of contracting with multiple entities rather than a single entity, it may create
performance risks. We observed that BLM should ensure that they plan and monitor project
execution and oversight adequately to ensure it is successful, and that they should also consider
including a justification for using this strategy.

        BLM did not address the observation mentioned above, nor did they provide reasoning
for their strategy in their final program plan. We are including it in the section on issues that
have been addressed because, subsequent to the issuance of the final program plan, a
determination by the solicitor’s office resulted in the requirement being classified as a
"construction" project, rather than remediation. This reclassification caused a change in the
acquisition strategy regarding the initial decision to utilize small businesses, native owned
businesses, and minority owned service providers. The requirement now exists for both payment
and performance bonds to equal 100 percent of the contract value each. The project is currently
estimated to cost $23.6 million. This dollar value would result in bonds totaling $47.2 million
($23.6 million for payment bonds and $23.6 million for performance bonds). The original target
vendors could be either unable to obtain these bonds or able to obtain them at a cost that places
them at a competitive disadvantage over larger companies that can obtain the bonds significantly
cheaper. BLM’s National Centers Region published a solicitation seeking sources for the
project.

USGS Program Plan

       We reviewed the USGS draft program plan, dated March 19, 2009, and provided our 

observations to the bureau and Department. We reviewed both the USGS response to our 

comments on their draft plan and the bureau’s final April 10, 2009 program plan to determine 

whether our observations were addressed. Our observations and the response from USGS 

follow. 


Upgrade to Stream Gauges

         The draft program plan stated “HDR [High Data Rate] radios will not decrease 

operational costs…,” but it did not state whether costs would increase or whether future 

maintenance costs would be incurred. USGS responded that one of their project selection 

criteria was that Recovery Act projects would not increase the cost of future operations and 

maintenance. 


                                                                                                    7
 Data Preservation

        We noted that the draft program plan included a “Data Preservation” project selected
because “(it) was determined to be the highest priority for ARRA [Recovery Act] funding, given
the risk of loss due to potential damage and limited access by others. This project is a high
priority because of the importance of access to the information by the USGS, States,
Universities, and others.” Since this statement did not address specific project selection criteria
such as job creation, health and safety, or energy efficiency, we were unclear as to why it is the
highest priority project.

        USGS responded to our concern and noted that the project would contribute to job
creation since youth would be employed for the project and that preservation of this data could
contribute to improvement of human health as well as reduce costs for data storage.

Deferred Maintenance

       The draft plan stated that

       USGS will address the highest priority deferred maintenance projects at its owned
       facilities. These projects will address health and safety issues, make facilities more
       energy efficient, and use sustainable design criteria in project implementation. The
       USGS annual deferred maintenance and capital improvement backlog is funded at about
       $2.0 million per year. The Recovery Act funding will address almost 25 years of this
       backlog and at least one third of the current deferred maintenance backlog will be
       addressed.

We expressed concern that USGS claimed one third of the current deferred maintenance backlog
will be addressed. In discussions with USGS, we understood that all of the 5-year deferred
maintenance would be addressed.

        USGS responded to our comment by noting that their original program plan was based on
deferred maintenance needs outlined in the 2009 5-year plan. However, their latest plan is based
on the 2010 5-year plan, which explains the difference in estimates of deferred maintenance
backlog that will be addressed by Recovery Act funding.

FWS Program Plan

       We reviewed the FWS draft program plan, dated April 16, 2009, and provided our
observations to the bureau and Department. We reviewed both FWS’ responses to our
comments on their draft plan and the bureau’s final program plan, dated April 24, 2009, to
determine whether our observations were addressed. Our observations and the response from
FWS follow.




                                                                                                  8
Project information missing

        The Department issued the “Economic Recovery Template and Guidance for Project
Lists” that included general guidance and an excel spreadsheet template in which to list projects
and several data elements—outlined in the guidance—for each project. This information was
included in the program plan. In our review of the FWS draft program plan, we noted several
problems with project information.

           	 Some projects lacked information required on the project template (e.g. a project
              in Alaska to replace a damaged culvert lacked a “Time to Complete” estimate;
              most projects did not complete the “Permitting and Consultation” column).

           	 FWS anticipated using different types of award vehicles for several similar
              projects, but provided no explanation on the necessity of this approach. There are
              specific rules for when an agency should use a contract, grant, or cooperative
              agreement. A contract is used when the government needs to obtain a good or
              service, a grant should be used only for a public purpose, and a cooperative
              agreement is an appropriate vehicle only when there is substantial involvement by
              both the government and the cooperator in the project. Using different vehicles
              for the same project or like projects should be explained to provide transparency
              as to whether the bureau considered the use of an appropriate vehicle.

           	 Several capital improvement projects were incorrectly listed in the deferred
              maintenance program area.

           	 The plan did not describe how required project elements (such as health and
              safety, energy efficiency, and renewable energy) were weighted for project
              selection. In particular, we noted that several construction projects were proposed
              for Recovery Act funding with DOI scores (5-year plan scoring methodology)
              lower than a project with a higher score.

FWS stated they addressed all of our comments by completing all data elements in the project
template, correcting the project list, or revising language in the plan. We verified that they
addressed in the final program plan each item we identified. They also included a chart that
explains each type of award vehicle that will be used.

Bureau Governance Structure

       We observed that the FWS workgroup being established for ensuring compliance with
the Recovery Act did not appear to include acquisition staff as members. Since acquisition is a
formidable challenge given the time-frames envisioned in the Act, we expressed concerns that
they were not represented in the oversight workgroup. FWS responded that the Assistant
Director, Business Management and Operations is a member of the workgroup. The Bureau
Procurement Chief reports to this individual, and therefore, FWS stated that the acquisition staff
has representation in the workgroup through this Assistant Director.



                                                                                                     9
Observations on Bureau Program Plans That Were Not Addressed

NPS Program Plan

NPS Project Lists and Selection

        The NPS rationale for selecting certain projects was not fully explained in the draft or
final program plan. We observed that many projects on the draft NPS project list, dated April 8,
2009 (on which the program plan was based), had relatively low DOI scores.2 For example, 175
of the 769 projects had a score below 500 out of a possible 1,000. We also noted that 44 projects
(estimated to cost a combined total of about $52 million) had no score. We understand that
projects with higher scores may have been excluded because they may not be ready for
implementation, and completing them in the Recovery Act timeframes may not be feasible. We
also realize that the DOI score is based on construction and deferred maintenance, and therefore
may not be adaptable to projects such as habitat restoration, renewable energy, and equipment
replacement. However, the rationale for incorporating projects with a lower priority, or projects
with no DOI score, should be transparent but was not explained.

        In addition, the Department issued guidance (“Economic Recovery Template and
Guidance for Project Lists” dated February 20, 2009) describing categories to consider in project
selection. These criteria are different from those included in the 5-year plan criteria, and they
include energy efficiency, use of renewable energy, youth, treasured landscapes, and national
icons. The draft program plan did not describe how these factors were considered in project
selection, and no explanation was added to the final plan.

        We also noted a discrepancy between the project lists we reviewed and the projects
mentioned in the draft program plan. The NPS project lists indicate that 701 projects (both
construction and non-construction) were selected from the bureau’s “5-year plans.” The
program plan refers to a construction 5-year plan and a deferred maintenance 5-year plan, and it
notes that the total number of projects selected from these two plans is 447, which is different
from the project lists. We suggested that NPS clarify or reconcile these differences. The final
program plan contains the same discrepancy.

Cooperative Agreements and Contracts

       The plan indicates in several places that NPS will use both cooperative agreements and
contracts for the same project. These projects fall into the abandoned mines and deferred
maintenance categories. As stated under the discussion of FWS, specific rules exist for when an
agency should use a contract, grant, or cooperative agreement. We observed that NPS should
explain why different types of procurement vehicles will be used for similar types of work.
Additionally, we have observed in prior evaluations that the Department does not always select
or implement cooperative agreements appropriately.3


2
    These scores are developed based on a specific process, which is described in the plan.
      3
        Proper Use of Cooperative Agreements Could Improve Interior’s Initiatives for Collaborative Partnerships.
      January 2007. W-IN-MOA-0086-2004.
                                                                                                                10
       NPS did not address this issue in their final program plan. There is no additional
explanation as to why certain projects will require two different types of proposals.

BIA Program Plan

BIA Governance

        The draft plan described the governance function within Indian Affairs. The plan noted
that a senior-level workgroup will oversee Recovery Act fund allocation, status of obligations
and outlays at the appropriation and funding category level. The plan also stated, “additional
review will occur at the project level by program managers with oversight of this workgroup as
warranted.” The plan did not describe how program managers will oversee performance of
projects, which may be conducted in-house or by contract (direct to contractors or to tribes via
Public Law 93-638 contracts).

        We expressed concern that program managers’ spans of control and authority may not
allow identification of problems in a timely enough fashion to ensure corrective action is taken
when problems arise. For example, some program managers are responsible for programs
estimated to cost up to several hundred million dollars. In addition to overseeing Recovery Act
funds, the Transportation program manager (BIA road maintenance program) is also responsible
for highway construction funds allocated to BIA or tribes by the Federal Highway
Administration. These funds total several hundred million dollars. We observed that the
Department and bureaus should ensure that program managers have adequate support to ensure
effective oversight.

       The issue was not addressed in the final program plan.

Housing Improvement Program

        The plan notes that one new construction project will be completed by the 3rd quarter of
fiscal year (FY) 2009 (e.g. June 2009) and three projects completed in the 4th quarter of FY 2009
(e.g. September 2009). We observed that this schedule seems ambitious. BIA included this
schedule in its final program plan, and we are unaware of any construction projects completed
with Recovery Act funds.

School Replacement Construction and School Improvement and Repairs

        The top five school construction projects proposed are estimated to cost a total of $135
million. BIA noted that projects were selected with completed designs or capable of being “fast-
track, design-build construction.” Several large projects were also proposed in the School
Improvement and Repair program.

        BIA did not describe how they will oversee these large projects in an effective and timely
manner to preclude cost growth or schedule creep. For these large projects, we urged BIA to
ensure it exercises effective oversight. We also observed it could be beneficial to develop a
process to identify instances when cost and/or performance targets were not met and to take
corrective actions when necessary.
                                                                                               11
        BIA did not address this issue in the final program plan. Oversight on these large
projects remains a concern.

Conclusion
        We are encouraged that the Department and bureaus shared the majority of program
plans with us for comment and that the majority of our comments were addressed in final
program plans. Many of our observations pertained to inconsistencies contained in the plans or
points of clarification needed. We believe the changes made by the Department and bureaus will
help to meet the transparency requirements under the Recovery Act.

        Many of the areas that were not addressed in the program plans, such as the appropriate
use of cooperative agreements and ensuring effective management and oversight of dollars
dedicated to Indian programs, have been long-standing challenges in the Department. We will
continue to work with the bureaus and the Department to ensure these programmatic areas are
addressed.

cc: 	   Acting Assistant Secretary – Policy, Management and Budget
        Director, Office of Acquisition and Property Management
        Director, Office of Financial Management
        Director, Indian Affairs
        Director, Bureau of Land Management
        Director, U.S. Fish and Wildlife Service
        Director, National Park Service
        Director, U.S. Geological Survey
        Recovery Coordinator, Assistant Secretary Indian Affairs
        Recovery Coordinator, Bureau of Indian Affairs
        Recovery Coordinator, Bureau of Land Management
        Recovery Coordinator, U.S. Fish and Wildlife Service
        Recovery Coordinator, National Park Service
        Recovery Coordinator, U.S. Geological Survey
        Departmental GAO/OIG Audit Liaison
        Audit Liaison, Office of the Secretary
        Audit Liaison, Bureau of Land Management
        Audit Liaison, Indian Affairs
        Audit Liaison, National Park Service
        Audit Liaison, U.S. Fish and Wildlife Service
        Audit Liaison, U.S. Geological Survey




                                                                                              12
          



                                                     


                       Report Fraud, Waste, and 
  
                          
                           Mismanagement

                                                       
                                 Fraud, waste, and mismanagement in
                             government concerns  everyone: Office of
                                 Inspector General staff, Departmental
                         employees, and the general public. We actively
                         solicit allegations
                                                of any inefficient and wasteful
                                  practices, fraud, and abuse related to
                              
                           Departmental       or Insular Area programs and
                          operations. You can report allegations to  us in
                                               several  ways.
                                                     
                                                         
                                                     
                                                     
                  By Mail:  	          U.S. Department of the Interior  
                                       Office of Inspector General  
                                       Mail Stop 4428 MIB  
                                       1849 C  Street, NW
                                       Washington, D.C. 20240  
                   
                  By Phone :  	        24‐Hour Toll Free	                800‐ 424‐5081   
                                       Washington Metro Area             703‐ 487‐5435   
                   
                           	  
                  By Fax:	             703‐487‐5402  
                   
                  By Internet:		       www. doioig.gov/hotline
               




                                                                                             
